<html>
<title> - NOMINATION HEARING</title>
<body><pre>[Senate Hearing 115-472]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-472

                          PENDING NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

      NOMINATION OF EMORY A. ROUNDS III NOMINTATED TO BE DIRECTOR,
           U.S. OFFICE OF GOVERNMENT ETHICS, KELLY A. HIGASHI
       NOMINATED TO BE AN ASSOCIATE JUDGE, SUPERIOR COURT FOR THE
      DISTRICT OF COLUMBIA, AND FREDERICK M. NUTT NOMINATED TO BE
     CONTROLLER, OFFICE OF FEDERAL FINANCIAL MANAGEMENT, OFFICE OF 
                         MANAGEMENT AND BUDGET

                               __________

                              MAY 23, 2018

       Available via the World Wide Web: http://www.Govinfo.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-489 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact 
Center,U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a9ced9c6e9cadcdaddc1ccc5d987cac6c487">[email&#160;protected]</a> 
        
        
        
       
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  HEIDI HEITKAMP, North Dakota
JAMES LANKFORD, Oklahoma             GARY C. PETERS, Michigan
MICHAEL B. ENZI, Wyoming             MAGGIE HASSAN, New Hampshire
JOHN HOEVEN, North Dakota            KAMALA D. HARRIS, California
STEVE DAINES, Montana                DOUG JONES, Alabama

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
   Amanda R. Hill, Deputy Staff Director, Subcommittee on Regulatory
                     Affairs and Federal Management
               Margaret E. Daum, Minority Staff Director
               Donald K. Sherman, Minority Senior Counsel
               Stacia M. Cardille, Minority Chief Counsel
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lankford.............................................     4
    Senator Jones................................................     5
    Senator Carper...............................................    12
    Senator Hassan...............................................    14
    Senator Heitkamp.............................................    20
Prepared statements:
    Senator Lankford.............................................    21
    Senator Jones................................................    23
    Senator Collins..............................................    26

                               WITNESSES
                        Wednesday, May 23, 2018

Hon. Angus King, a U.S. Senator from the State of Maine..........     1
Hon. Eleanor Holmes Horton, a Representative in Congress from the 
  District of Columbia...........................................     3
Emory A. Rounds III Nominated to be Director, U.S. Office of 
  Government Ethics
    Testimony....................................................     7
    Prepared statement...........................................    27
    Biographical and financial information.......................    29
    Letter from the Office of Government Ethics..................    40
    Responses to pre-hearing questions...........................    43
    Responses to post-hearing questions..........................    80
Kelly A. Higashi Nominated to be an Associate Judge, Superior 
  Court for the District of Columbia
    Testimony....................................................     9
    Prepared statement...........................................    93
    Biographical and financial information.......................    94
    Responses to post-hearing questions..........................   116
Frederick M. Nutt Nominated to be Controller, Office of Federal 
  Financial Management, Office of Management and Budget
    Testimony....................................................    10
    Prepared statement...........................................   117
    Biographical and financial information.......................   119
    Letter from the Office of Government Ethics..................   136
    Responses to pre-hearing questions...........................   141
    Responses to post-hearing questions..........................   155

 
                           NOMINATION HEARING

                              ----------                              


                        WEDNESDAY, MAY 23, 2018

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m., in 
room 342, Dirksen Senate Office Building, Hon. James Lankford 
presiding.
    Present: Senators Lankford, Carper, Heitkamp, Hassan, 
Harris, and Jones.
    Senator Lankford. Good afternoon, everyone. I apologize for 
starting a couple of minutes late. I am going to shift some 
schedule around a little bit in deference to some Members and 
some things that are moving right now as well, and so we can 
also get us moving as we go through this, and move some of our 
introductions, our distinguished guests that are here as well, 
Senator King and Delegate Norton, to be able to do some 
introductions, which we want to make sure we honor that. That 
is a rare enough moment for us to have votes at all, and so I 
want to make sure that we are getting good quality time to that 
and we can get through as much as we possibly can.
    So what I would like to do before I do my opening 
statement, before Ranking Member Jones today gives his opening 
statement, I would like to recognize Senator King to do an 
introduction, and then I am going to recognize Delegate Norton 
to also do an introduction as well. Senator King.

STATEMENT OF THE HONORABLE ANGUS KING, A UNITED STATES SENATOR 
                    FROM THE STATE OF MAINE

    Senator King. Thank you, Chairman Lankford, and Senator 
Carper, Members of the Committee. It is an honor for me to come 
to the meeting and join my colleague, Senator Collins in 
introducing Emory Rounds. He is President Trump's nominee to be 
the Director of the Office of Governmental Ethics (OGE).
    Before I begin I want to recognize Emory's family. His 
wife, Leslie, is here. She is the Executive Director of the 
Dyer Library and Saco Museum in Maine. I also want to recognize 
his children, Emory IV, Erin, Kathleen, Christopher, and Megan. 
And I know from service in the government that their support is 
very important to his successful career.
    Emory Rounds has a long record of public service. He was a 
Navy Judge Advocate General (JAG) officer for 22 years, ethics 
counsel in the Bush Administration, most recently an associate 
counsel at the Office of Governmental Ethics. In the Navy, he 
served in a number of different capacities as a JAG officer, 
command legal officer, district attorney, chief counsel 
resolving criminal, tort, ethics, civil, personnel information 
release, equal opportunity, aviation accidents, international 
congressional inquiry--admiralty and litigation issues. In 
Department of Commerce he served as a staff attorney in the 
Office of the Assistant General Counsel of Administration, and 
as such he managed ethics training for over 12,000 employees, 
personally trained more than 1,100 employees.
    From 2003 to 2009, Emory served as Associate Counsel to the 
President, where he provided counsel to Cabinet and other 
Senate confirmed nominees regarding financial disclosure 
reports, responsibilities, as well as standards of conduct, 
compliance, and general legal issues. He recruited and 
supervised ethics professionals detailed to the Office of 
Counsel to the President.
    Since 2009, Emory has been working in the Office of 
Governmental Ethics. He has been a Special Assistant to the 
OGE's Acting Director, Acting Chief of OGE's Internal 
Operations Division, and Associate Counsel in the General 
Counsel's Office.
    I think the one thing that is clear is that Emory Rounds is 
devoted to public service. That is why his nomination has won 
praise from people like Walter Shaub, the former OGE Director. 
Mr. Shaub said, on Cable News Network (CNN), ``He is a solid 
guy, a decent human being, devoted his life to public 
service.'' That is not a bad epitaph for any of us, a solid 
guy, a decent human being, devoted his life to public service.
    It is a privilege to be able to introduce him to the 
Committee today. I commend him to your consideration and am 
delighted to have a son of Maine appearing before this 
Committee and ascending to this important position.
    Senator Lankford. The only hesitation that we would have is 
Mainers are so incredibly nice. To have someone running 
government ethics to be that nice, to be a Mainer, makes us all 
a little nervous.
    Senator King. Thank you, Mr. Chairman. I will note that for 
the record.
    Senator Lankford. Yes. I would also ask unanimous consent 
that the statement of Senator Collins,\1\ who could not be here 
due to other Committee assignments right now, regarding the 
support for Emory Rounds, to be the Director of the Office of 
Government Ethics, also be included in the hearing record. 
Without objection, I would like to include her resounding 
recommendation as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Collins appears in the 
Appendix on page 26.
---------------------------------------------------------------------------
    Senator King, thank you. If you want to stay you are 
welcome to that, or I know you also have other 
responsibilities.
    Senator King. We are in the Armed Services Committee right 
now, so I feel that I must do that, Mr. Chairman.
    Senator Lankford. Thank you.
    Delegate Norton, thank you for being here. You have such an 
incredible pride and tenacity for watching out for Washington, 
DC. We are honored that you are here to be a part of this 
conversation. Obviously, this hearing itself also is very 
important to Washington, DC. in the days ahead and in the 
judicial work here so I appreciate you being here very much. 
You are recognized.

      STATEMENT OF THE HONORABLE ELEANOR HOLMES NORTON, A 
    REPRESENTATIVE IN CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Senator Lankford, and we 
certainly miss you on the House side, especially in the 
Committee on which you and I both served.
    I very much appreciate the opportunity to appear before you 
today on behalf of the nomination of Kelly A. Higashi. But the 
court to which she is being nominated is different from what 
this Committee is used to hearing, because it is the Superior 
Court of the District of Columbia. That is an Article I court, 
which means this Committee must confirm.
    I will summarize my testimony. I think you will find Ms. 
Higashi to be an eminently qualified nominee to serve on the 
Superior Court, which is the engine of the day-to-day criminal 
and civil justice operation in the District of Columbia.
    Mr. Chairman, it would be difficult to imagine a nominee 
more qualified and with greater experience. The nominee has 
litigated in both the D.C. courts and the Federal courts. She 
is now 14 years as Chief of the Sex Offense and Domestic 
Violence Section of the United States Attorney General's 
Office. She has a staff of 38, and she has this multifaceted, 
with both courts, experience that should hold her in good 
stead.
    Higashi was an Assistant U.S. Attorney for 22 years, and 
litigated in the United States District Court for the District 
of Columbia. She handled complex, and sometimes very serious 
litigation involving domestic violence and sexual assault 
involving both adults and children. She has been the recipient 
of a number of awards.
    She received her bachelor's degree from the University of 
Pennsylvania and then came here to law school, to George 
Washington University Law School. She clerked on the Superior 
Court, which is the court on which she would now serve on, if 
confirmed.
    I hope you will allow me, Mr. Chairman, indeed, I think I 
would be remiss if I did not call to your attention the number 
of vacancies on the D.C. Superior Courts. There are 10 
vacancies out of 62 authorized judges of the Superior Court, 
and 2 vacancies out of 9 authorized on the Court of Appeals. We 
are a year and a half into this Congress, and we have only been 
able to get one judge confirmed.
    The reason I bring that to your attention, this is a very 
busy, big-city court, and the court has indicated that it feels 
itself in a crisis mode. Understandably, most of the nominees 
that are here before you are here for Federal courts, so it is 
very difficult for the Committee to focus on an Article I 
court. I understand that. I would not use this time to bring 
this to your attention except that the judges of the Superior 
Court and the D.C. Court of Appeals have brought these 
vacancies to my attention on more than one occasion and our 
local court is in crisis for lack of personnel. Because these 
nominees are so over-qualified, if I may say so, I do not think 
it would take much time if the Committee were to hear from a 
few more of these judges.
    The Senate leadership, of course, is understandably more 
focused on your attempts during this Congress to get U.S 
District Court and Courts of Appeals nominees confirmed. I draw 
the D.C. Court vacancies to your attention and ask that you 
give some further attention, even as I thank you very much for 
reducing the number of vacancies by the hearing before you 
today for Ms. Higashi.
    Senator Lankford. Ms. Norton, thank you for being here. 
Again, you are welcome to be able to remain or you also have 
other responsibilities. I know lots of things that are going 
on. This is a busy week in the House as well, so you may take 
your leave either direction that you choose to go.

            OPENING STATEMENT OF SENATOR LANKFORD\1\

    Senator Lankford. I do want to introduce and be able to set 
up the rest of the hearing, on the three nominations we have, 
Mr. Emory Rounds to be the Director, Office of Government 
Ethics; Ms. Kelly Higashi to be the Associate Judge on the 
Superior Court of the District of Columbia; Mr. Frederick Nutt 
to be the Controller of the Office of Federal Financial 
Management (OFFM), which is in the Office of Management and 
Budget (OMB).
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lankford appears in the Appendix 
on page 21.
---------------------------------------------------------------------------
    The Committee takes these nominations seriously. We are 
pleased to have three very strong candidates before us today.
    Mr. Emory Rounds is nominated to be the Director of the 
Office of Government Ethics. Mr. Rounds earned his B.A. from 
the University of Massachusetts at Amherst and his J.D. from 
the University of Akron Law School. Upon completion of law 
school, Mr. Rounds began his active duty Navy career, where he 
advanced from attorney to Military Judge in his 22 years of 
military service to his country.
    After a very brief retirement--I think it was about 10 
minutes or so, if I remember reading it right--Mr. Rounds 
rejoined the Federal Government as an ethics attorney, first 
with the Department of Commerce and then as Associate Counsel 
to President George W. Bush at the White House Counsel's 
Office. Mr. Rounds joined the Office of Government Ethics as an 
Associate General Counsel in 2009, the position which he serves 
now.
    Committee staff spoke to Mr. Rounds' colleagues in the 
ethics community and OGE, who spoke exceptionally highly of his 
experience as an ethics lawyer and his commitment to the 
mission of the Office of Government Ethics. The Committee is 
confident Mr. Rounds is qualified to be the Director of the 
Office of Government Ethics.
    Ms. Higashi earned a Bachelor of Arts degree from the 
University of Pennsylvania and her J.D. from George Washington 
University School of Law. Ms. Higashi has had a legal career 
steeped in criminal law. After law school, Ms. Higashi clerked 
for The Honorable Frederick Weisberg of the Superior Court of 
the District of Columbia. Ms. Higashi then joined the U.S. 
Attorney's Office of the District of Columbia in 1994.
    Early in her career with the U.S. Attorney's Office, Ms. 
Higashi rotated through several sections, gaining experience in 
the misdemeanor trial section, felony trial section, and grand 
jury selection and the narcotics section. However, for the last 
15 years, Ms. Higashi's work has focused on the very difficult 
work of the Sex Offense and Domestic Violence Section of the 
U.S. Attorney's Office for the District of Columbia. Ms. 
Higashi is currently the section chief of this section, and, by 
the way, is very respected there.
    Committee staff reached out to numerous colleagues of Ms. 
Higashi and the comments were very positive, with specific 
praise given to her intelligence, her hard work, her people 
skills, and leadership as section chief, her ability to manage 
difficult cases, make hard decisions every day. Interestingly 
enough, after all of those things, several mentioned just her 
humanity in dealing with victims of crime, as well, and her 
compassion for those individuals. Those are good 
characteristics for a judge.
    The Office of Federal Financial Management provides 
direction to our Federal financial systems. The Controller 
coordinates the work of the Chief Financial Officers of the 
major Federal agencies. The Controller also coordinates the 
work of the senior real property officers. This position 
provides a unique opportunity to help make our Federal 
Government run efficiently and effectively by implementing 
policies that support sound budgeting, cost management, 
effective financial reporting, and right-sizing Federal real 
properties.
    Frederick Nutt graduated from Virginia Tech and has spent 
much of his career serving in the Federal Government. Mr. Nutt 
has worked in both houses of Congress and has held several 
financial management roles at the Environmental Protection 
Agency (EPA), the Millennium Challenge Corporation, and the 
Overseas Private Investment Corporation.
    Committee staff spoke with former colleagues of Mr. Nutt 
and they speak very highly of his professionalism and his 
varied experience that has gained within the Federal 
Government, and that he could bring that understanding to 
different Federal organizations had a great bearing in this 
selection.
    Staff interviewed the nominees on an array of issues. Each 
has thoughtfully and competently answered each question. To 
date, the Committee has found you all to be qualified to the 
position you have been nominated. I look forward to speaking 
with each of you more today on your experience and 
accomplishments and how you intend to bring them to bear for 
the Federal Government and for the District of Columbia.
    I now recognize Ranking Member Jones for his opening 
statement as well.

             OPENING STATEMENT OF SENATOR JONES\1\

    Senator Jones. Thank you, Mr. Chairman and thank you for 
the opportunity, for the first time, to serve as Ranking Member 
on this Committee. And I want to thank each of you and 
congratulate you, Mr. Rounds, Mr. Nutt, and Ms. Higashi, for 
being here today and on your nominations. Each of you has 
demonstrated a dedication to public service and we appreciate 
your willingness to continue to serve in those new roles.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Jones appears in the Appendix 
on page 23.
---------------------------------------------------------------------------
    Ms. Higashi, as an attorney who has practiced in Federal 
and State courts for almost 40 years, I know how much litigants 
depend on having qualified, impartial judges on the bench. I 
served as an Assistant U.S. Attorney, a U.S. Attorney, also as 
a defense lawyer at various parts of my career, so I understand 
the difficult work you have been doing, and I commend you on 
your dedication to finding justice for the most vulnerable 
among us who have been the victims of some of the most heinous 
crimes.
    Public service requires government employees to place 
loyalty to the Constitution, the laws and ethical principles 
above private gain. The Office of Government Ethics is 
responsible for providing leadership and oversight to the 
Executive Branch ethics programs, which is intended to prevent 
and resolve conflicts of interest involving Administration 
employees. In other words, the purpose of OGE is to safeguard 
the public's trust in government.
    In the current climate of intense partisanship and 
suspicion, the importance of this role cannot be overstated. 
Created by the 1978 Ethics in Government Act in the wake of 
Watergate, the OGE was reviewed and reauthorized by Congress 
until 2007, when its statutory authorization expired. Although 
OGE does continue to receive Federal appropriations, 
reauthorization is important and provides an opportunity to 
consider whether there are improvements that can better enable 
the OGE to fulfill its mission. I hope that this Congress will 
see fit to reauthorize OGE before it ends later this year.
    There are a number of OGE reform proposals under 
consideration, some based on suggestions made by former OGE 
Director Walter Shaub. Having reviewed those proposals and 
given the climate we currently find ourselves in, I hope that 
they will be given serious consideration by Congress, and to 
the extent that they can be done internally by OGE itself.
    Mr. Rounds, you have an extensive background in ethics and 
obviously a deep commitment, not just to public service but to 
ethical and transparent public service. I am interested to hear 
how you plan to help OGE navigate novel conflict-of-interest 
circumstances, whether you feel OGE has the adequate tools 
necessary to address the issues that have recently arisen, and 
how you plan to ensure OGE's independence in doing its job.
    The Office of Federal Financial Management also has a role 
in protecting the public trust in government, specifically with 
regard to the effective and transparent use of government 
resources. The OFFM was established in 1990, to lead the 
Executive Branch toward better financial management and 
decisionmaking. Its priorities include transparency and data 
management, shared services, real property, improper payments, 
grants management, internal control, Federal financial 
reporting, debt collection, and charge cards. We could probably 
add some more to that, Mr. Nutt, if you want to increase your 
responsibilities, but I think that that is plenty.
    Mr. Nutt, you are currently serving as Senior Advisor to 
the Director and Deputy Director of the Office of Management 
and Budget, and in that role you have had some opportunity to 
familiarize yourself with OFFM, since it reports to the Deputy 
Director. You have recognized that the Federal Government 
continues to waste far too much money on improper payments, and 
I look forward to hearing your thoughts on ways OFFM can 
effectively reduce this number.
    Once again, thank you all for your service and thank you 
for being here, and I look forward to hearing from each of our 
nominees.
    Thank you, Mr. Chairman.
    Senator Lankford. Thank you. It is the custom of this 
Committee to be able to swear in all witnesses before they give 
testimony, so if you would please stand and raise your right 
hand.
    Do you swear the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Rounds. I do.
    Ms. Higashi. I do.
    Mr. Nutt. I do.
    Senator Lankford. Thank you. You may be seated. Let the 
record reflect that all witnesses answered in the affirmative.
    I am going to recognize you in the order that you are 
seated here, actually. Mr. Rounds you will go first. I would 
fully anticipate that when you begin your oral testimony you 
will start by recognizing your family that is here, and 
introducing them to us. We are all very pleased to be able to 
meet your family. This is a big day, not just for you but for 
your family as well.
    Mr. Rounds, you are recognized.

TESTIMONY OF EMORY A. ROUNDS III,\1\ NOMINATED TO BE DIRECTOR, 
                U.S. OFFICE OF GOVERNMENT ETHICS

    Mr. Rounds. Thank you, Chairman. I would like to introduce 
my wife of some 45 years, Leslie Rounds. I do not know what I 
would do without her; my daughter, Erin, a newly minted 
attorney from California; my son, Emory, on the end, my oldest, 
and his friend, Cagney. Thank you, sir.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rounds appears in the Appendix on 
page 27.
---------------------------------------------------------------------------
    Chairman Lankford, Ranking Member Jones, Senator Carper, 
Senator Hassan, Senator Harris, Members of the Committee, I 
thank you for the opportunity to appear here before you today.
    I am profoundly honored that President Trump has nominated 
me to be the Director of the Office of Government Ethics. It 
has been my distinct privilege to serve my country and the 
American public for more than four decades, as a career naval 
officer and later as a civil servant and White House appointee. 
That I might serve further, as OGE's Director, would certainly 
be the capstone of my government career.
    I have proudly been a member of the OGE team since January 
2009, and could not be more pleased to have, if I am confirmed, 
an opportunity to lead the people who constitute the most 
dedicated, talented, and professional small agency staff in the 
Executive Branch. In context with the growing interest in and 
concerns regarding government ethics, OGE finds itself under-
funded, under-staffed, over-missioned, and to a great extent 
under-appreciated. But, to a person, OGE's staff always 
performs above any reasonable expectations.
    If confirmed, my challenges as Director may be many, but 
the least among those challenges is any question about OGE's 
staff and its ability to do its job, whatever the environment. 
Each member of OGE's staff is committed to achieving OGE's 
mission, whatever it takes to do so, to ensure that OGE 
continues to provide leadership and oversight of the Executive 
Branch's ethics program. This nation should be proud of their 
work.
    I have been a zealous supporter of the government's ethics 
program and its mission to prevent conflicts of interest; 
fraud, waste, and abuse; and to ensure impartiality throughout 
my career. I firmly believe that it is better to prevent 
ethical misconduct than to correct or punish violations after 
the fact. I strongly believe that it must be Executive Branch 
leaders who, by example, foster an ethical culture in their 
agencies not only by themselves acting in compliance with the 
ethics laws and rules, but also by carefully considering the 
appearance of their actions, even if permissible. The default 
must be on the side of ``over-compliance'' rather than the 
testing of any limits. In my opinion, the tone from the top is 
critical to fostering and maintaining a strong ethics culture 
and a positive tone, which requires more than mere technical 
compliance.
    If confirmed as OGE's Director, I would take on the 
critical duty of ensuring that the Executive branch's ethics 
laws and rules are followed by calling upon government leaders 
to protect the integrity of government and strengthen the 
public's confidence in government decisionmaking.
    To that end, one of my immediate priorities, if confirmed, 
would be to personally meet with as many departmental and 
agency heads as I can, as quickly as possible, to convey my 
commitment to, and leadership of, the ethics program. I would 
impress upon these officials the critically important need for 
their strong ethics leadership. Further, I would commit to 
leading the Executive branch ethics program by working with 
senior agency leaders, ethics officials, and the enforcement 
community to prevent potential ethical lapses, resolve issues 
that currently exist, and support enforcement when prevention 
has failed.
    Integrity in government must not be simply aspirational. 
Rather, it must be our mission as senior leaders every day to 
encourage and foster a culture of government integrity, free of 
conflicts, and dedicated to impartial decisionmaking. Without 
impartial and ethical decisionmaking, government leaders cannot 
deliver on their important promises, perform their public 
duties, or serve our country and its people.
    If confirmed, I look forward to the opportunity to lead OGE 
and the Executive Branch in this vital mission.
    Mr. Chairman, thank you once more for your consideration of 
my nomination.
    Senator Lankford. Thank you, Mr. Rounds. Ms. Higashi, I 
understand that your parents were not able to join us today but 
they are watching online through a video feed. They have to be 
incredibly proud of you. This is yet another accomplishment in 
your life, in your service. So I look forward to receiving your 
testimony, and I am sorry they could not be with us here today.
    So, Ms. Higashi, you are recognized.

TESTIMONY OF KELLY A. HIGASHI,\1\ NOMINATED TO BE AN ASSOCIATE 
       JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Higashi. Thank you, Senator.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Higashi appears in the Appendix 
on page 93.
---------------------------------------------------------------------------
    Good afternoon, Mr. Chairman, and Members of the Committee. 
It is a great honor for me to be here today and I thank you for 
considering my nomination to be a Judge of the Superior Court 
of the District of Columbia.
    I would like to recognize the leadership of the Honorable 
Eleanor Holmes Norton for introducing me today, and the 
District of Columbia Judicial Nomination Commission, chaired by 
the Honorable Emmet Sullivan, for recommending me to the White 
House. I am grateful that Judge Sullivan is here today. I thank 
the President for nominating me for this position. I would also 
like to recognize and acknowledge D.C. Superior Court Chief 
Judge Robert Morin, who is present today, for his leadership 
and encouragement.
    I am immeasurably grateful for the support and inspiration 
of my colleagues, family, and friends, many of whom are here 
with me today. The United States Attorney for the District of 
Columbia, Ms. Jessie Liu, an exemplary leader of the Office, as 
well as many of my present and former colleagues, are here 
today, including Mr. Channing Phillips, the beloved former U.S. 
Attorney who preceded Ms. Liu.
    Many close friends, including two from my childhood days in 
California, who traveled from far away, are here today. I would 
like to introduce to you my family: my life partner, Mr. John 
Marsh, and our children, Mary Marsh, a freshman at Columbia 
University; and Riley Marsh, a ninth-grader at the School 
Without Walls in D.C. They, along with my 14-year-old nephew, 
Taro Zimmerman, are my greatest sources of support and 
inspiration.
    I would also like to acknowledge the love and support I 
have received from my two sisters, and to acknowledge my 
parents, Robert and Kiyo Higashi, who were unable to travel 
here from California, but who truly wished they could be here. 
My mother, who was born and raised in Portland, Oregon, and 
who, during World War II, spent several years in internment 
camps for Japanese Americans, is especially proud that I have 
had the privilege, as an Assistant United States Attorney, to 
seek truth and justice within our legal system, and if I am 
fortunate enough to be confirmed, that I will contribute to the 
D.C. Superior Court's mission to provide equal access to 
justice for all people.
    Although I was born and raised in Los Angeles, California, 
the District of Columbia is my home. I moved here in 1990, to 
attend law school at George Washington University School of 
Law, and I never left. I then had the good fortune to serve as 
a judicial law clerk to the Honorable Frederick H. Weisberg of 
the Superior Court of the District of Columbia, who I am 
honored to say is here today, and who has been a role model and 
mentor to me throughout my career.
    After my clerkship, I was sworn in as an Assistant U.S. 
Attorney in the District of Columbia, where I have served the 
citizens of the District as a prosecutor for the past 23\1/2\ 
years. It would be a privilege and an honor for me to continue 
my public service, and my commitment to the citizens of the 
District of Columbia, as an Associate Judge of the Superior 
Court.
    Thank you again for considering my nomination and I look 
forward to answering your questions.
    Senator Lankford. Thank you. Mr. Nutt, we would be pleased 
to be able to receive your testimony, and any introductions you 
want to give.

TESTIMONY OF FREDERICK M. NUTT,\1\ NOMINATED TO BE CONTROLLER, 
 OFFICE OF FEDERAL FINANCIAL MANAGEMENT, OFFICE OF MANAGEMENT 
                           AND BUDGET

    Mr. Nutt. Thank you. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nutt appears in the Appendix on 
page 117.
---------------------------------------------------------------------------
    Good afternoon Chairman Lankford, Ranking Member Jones, 
Members of the Committee. It is an honor to appear before the 
Committee today as the Administration's nominee for Controller 
in the Office of Management and Budget. I would like to thank 
the President for nominating me to this position and I would 
like to thank Director Mulvaney and Deputy Director for 
Management Weichert in supporting my nomination.
    I would also like to thank my father, Tom Nutt, who is 
sitting behind my left shoulder, for being a great father, 
mentor, and friend. I am very grateful that he was able to make 
it here today.
    I come from a family with a long commitment to public 
service. My grandfather served in the Iowa House of 
Representatives, my grandmother was a school teacher and 
principal, my father served 30 years in the United States Navy, 
and I have nearly 22 years of Federal service as well.
    After my father's Navy career, my family began farming just 
50 miles west of Washington, DC. There I learned how farming 
was a way of life, a business, a small business subject to 
factors outside of the farmer's control such as weather, 
pestilence, and economic decline. I also learned about the 
importance of being responsible, reliable and consistent.
    Years later, my family decided to try our hand at oyster 
farming in Reedville, Virginia. The Chesapeake Bay's oyster 
population had been depleted due to overharvesting and other 
ecological problems. We built a business that produced nearly 
600,000 oysters per year, which in addition to providing a food 
source, filtered the Bay's water and reduce the undesirable and 
excessive algae bloom.
    These experiences in farming and oyster aquaculture 
introduced me to the role that the government plays in the 
everyday lives of the American people. While farming, we 
interacted with the U.S. Department of Agriculture (USDA) Farm 
Service Agency and the Natural Resources Conservation Service, 
and with oyster farming, we interacted with the U.S. Army Corps 
of Engineers, the U.S. Environmental Protection Agency, and the 
State Marine Resources Commission. These experiences gave me an 
appreciation for the role government plays in our daily lives 
and how dependent we are for timely and effective interaction 
with government agencies.
    After college, I started my first professional job working 
as a cost analyst for a defense contractor. Several years 
later, I worked in the House of Representatives tracking 
appropriations riders which were important to the Speaker. For 
the last 15 years, I have worked in management at Federal 
agencies, such as the Environmental Protection Agency, the 
Millennium Challenge Corporation, and the Overseas Private 
Investment Corporation. At these agencies I led efforts to 
track appropriations, modernize, replace and consolidate 
financial systems, and modernize business systems to improve 
agency management and achieve savings. My experience leading 
management professionals in the Federal community taught me 
that many agencies face the same management issues, regardless 
of size.
    At a time when the American people are accessing 
information instantaneously and ordering food and 
transportation services over their smart phones, the Federal 
Government needs to modernize and transform the way it operates 
to be more effective at delivering the mission, to be more 
customer service oriented to the citizens, and to be good 
stewards of public assets.
    In working to develop solutions for management problems, I 
have learned how to work with stakeholders with a variety of 
competing interests and I have learned that improving 
management in an agency is more than buying new systems. It is 
about changing the minds of your peers and getting them to 
adopt bold new ideas. Without the support of internal 
stakeholders, failure is often a likely outcome.
    My experience has given me the knowledge, insight, and 
desire to lead efforts to address systemic problems including 
transforming financial management across government. My 
temperament and ability to convene with a variety of people and 
interests allows me to lead agency stakeholders to support new 
solutions. My practical experience has given me a holistic 
understanding of Federal financial systems and how they 
interact with other systems. I understand the lifecycle of a 
Federal dollar from appropriation to disbursement.
    My strong interest in improving Federal financial systems 
across government allows me to work across the silos within 
agencies in the areas of information technology (IT), 
procurement, and performance management to bring efficiency and 
transparency to government.
    My appreciation for the role government plays in our daily 
lives, the need for more efficient and effective government 
services, improved transparency, and my experience in working 
in financial management, has prepared me to address the issues 
facing financial management today.
    Thank you again Chairman Lankford, Ranking Member Jones, 
and Members of the Committee for your time and for the 
opportunity to appear before you today.
    I would be glad to take any of your questions.
    Senator Lankford. Thank you. Thank you, all three of you. 
We have three mandatory questions that we ask all candidates 
and nominees that appear before this Committee, so I am going 
to ask for a yes-or-no answer for these three questions, and 
then I am going to defer my questioning time to Senator Carper, 
then, to be able to ask a 5-minute question round there.
    So let me ask this first. This will be a yes-or-no 
question. I will ask all three of you in a row.
    First question, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated. Mr. 
Rounds.
    Mr. Rounds. No.
    Senator Lankford. Ms. Higashi.
    Ms. Higashi. No.
    Senator Lankford. Mr. Nutt.
    Mr. Nutt. No.
    Senator Lankford. Second question. Do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated? Mr. Rounds.
    Mr. Rounds. No.
    Senator Lankford. Ms. Higashi.
    Ms. Higashi. No.
    Senator Lankford. Mr. Nutt.
    Mr. Nutt. No.
    Senator Lankford. Third question. Do you agree, without 
reservation, to comply with any requests or summons to appear 
and testify before any duly constituted committee of Congress 
if you are confirmed? Mr. Rounds.
    Mr. Rounds. Yes.
    Senator Lankford. Ms. Higashi.
    Ms. Higashi. Yes.
    Senator Lankford. Mr. Nutt.
    Mr. Nutt. Yes.
    Senator Lankford. Thank you.
    I recognize Senator Carper for questioning.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Mr. Chairman, and welcome, one 
and all. Thank you for joining us today and for your friends 
and family that have joined you here and afar.
    I want to start off with a couple of yes-or-no questions if 
I could, for Mr. Rounds, and one question will need a little 
more discussion.
    The first one of those is, do you agree, Mr. Rounds, that 
it is important for OGE to function independently of the White 
House?
    Mr. Rounds. I believe that it is very important that the 
Office of Government Ethics provide solid, firm, independent 
advice. I analogize it to the good doctor who might otherwise 
have a patient who has an illness and has to be prescribed, 
perhaps, some hard medicine.
    Senator Carper. All right. Thank you. If confirmed as OGE 
Director, are you confident you can maintain independence from 
this White House and, when necessary, hold it accountable?
    Mr. Rounds. I certainly intend to do so. Yes, sir.
    Senator Carper. Good. Thank you.
    Third question. What steps will you take, if confirmed, to 
ensure that your work and the work of the OGE employees remains 
independent from this Administration?
    Mr. Rounds. Well, it simply is as we have done in the past, 
if I am confirmed. OGE has a very strong outreach and 
transparency program, and we will continue that. The Office of 
Government Ethics has not been shy, and will not be shy in the 
future, within the constraints of its authority, its limited 
authority, to take such action as is necessary to protect and 
preserve the integrity of the government with regard to the 
ethics laws and rules.
    Senator Carper. Thank you. A couple of questions for Mr. 
Nutt, and a welcome to your father. Tom Nutt, it is nice to 
have you here, sir.
    For years, my colleagues and I on this Committee have 
partnered with the Government Accountability Office (GAO), with 
agency Inspector Generals (IGs), with OMB to ensure that 
agencies are more efficiently and effectively addressing 
management challenges in areas like property management, IT 
procurement, and preventing improper payments. In fact, our 
Congress built off the recommendations of the Government 
Accountability Office by passing two real property reform 
bills. Some of us worked on that legislation. These bills 
require the Federal Government to better manage the vast real 
property holdings across our government, across the country, to 
help us get a better handle on what we are spending on real 
estate.
    So I would just ask of you, what is your vision for driving 
better management practices across the government when it comes 
to real property management?
    Mr. Nutt. Thank you, Senator, for that question. I think 
that real property in the Federal Government is an area that 
has been somewhat neglected in the past and it needs to be 
elevated, because it represents such a substantial----
    Senator Carper. I can assure you it has not been neglected 
in this Committee. Go ahead.
    Mr. Nutt. It represents such a substantial dollar amount 
that I think that by elevating the issue internally, and if 
confirmed I would work to that effort through the Federal Real 
Property Council, as well as through the Federal Assets Sale 
Transfer Act (FASTA) board, I would work to elevate that issue.
    Senator Carper. Just a follow-up. What, if any, reforms 
would you suggest to current law to expedite the process for 
disposing of excess unutilized or surplus real property?
    Mr. Nutt. Senator, at this point I do not have any 
suggestions to make to current law. I think that working within 
the context of the laws that we have is sufficient, and I would 
just like to work in that area.
    Senator Carper. At the beginning of our Congress, GAO 
issued something called a high-risk list, high-risk ways of 
wasting money, and near the top of the list every year has 
been, for a long time, real property management reform. The 
second area that they always bring to our attention, improper 
payments, which, last time I checked I think it was fiscal 
2016, totaled about $145 billion for overpayments, 
underpayments, mistaken payments, $145 billion, in a year.
    I understand that you do not believe that publishing a 
governmentwide improper payment rate is helpful to the issue of 
managing improper payments. In fact, I understand that the 
Trump Administration has not published an improper payment 
estimate for the Federal Government yet. Can you please 
elaborate on your position?
    Mr. Nutt. The issue of improper payments is an issue with a 
lot of different factors affecting the aggregate number. We had 
looked at it and discussed this internally, quite a bit, and we 
came up with the thought that the programs each have their own 
problems when it comes to improper payments, so it was much 
more helpful, from a policymaker's point of view, to look at 
each program-level activity and address the problems that they 
have at that amount.
    The aggregate number was not published for 2017. The 
program numbers were available, though, and could be added up, 
and I think if you did add them up you would find that it was a 
slight decline but it was within the margin of error of the 
estimates, so it was relatively flat.
    Senator Carper. I am out of time, but if improper payments 
are not identified, if they are not recorded in a manner that 
allows us to compare them to previous years, one would wonder 
how well you will be able to gauge OMB's efforts in addressing 
this issue, governmentwide. A guy named Vince Lombardi used to 
coach the Green Bay Packers for many years, quite successfully, 
as I recall, and he used to say if we are not keeping score, we 
are just practicing. What you cannot manage, and this is an 
issue that we have dealt with, trying to deal with, and I would 
say we just need all hands on deck, including OMB. Thank you.
    Senator Lankford. Thank you, Senator Carper.
    Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Well, thank you, Senator Lankford and 
Senator Jones. Thank you to all three of you for your past 
service, for being willing to accept these nominations, to your 
families. This is a family affair and we are so grateful for 
your support of these three nominees. And so congratulations, 
and again, thank you.
    I am going to ask my questions today of Mr. Rounds, and, 
Mr. Rounds, I enjoyed our meeting very much and I thank you for 
taking the time to have a courtesy meeting.
    I wanted to follow up a little bit on what Senator Carper 
was asking. I will take from your exchange with him that you 
are committing to ensuring that the Ethics in Government Act is 
enforced free from political influence. Is that correct?
    Mr. Rounds. That is absolutely correct.
    Senator Hassan. Thank you.
    Mr. Rounds. Yes, Senator.
    Senator Hassan. Does the Ethics in Government Act apply to 
individuals who work in the White House?
    Mr. Rounds. It applies, as written, to all officers and 
employees of the Federal Government.
    Senator Hassan. So that would include people in the White 
House.
    Will you commit to ensuring that government officials who 
work in the White House comply with the Ethics in Government 
Act?
    Mr. Rounds. To the extent of my authority as Director, if 
confirmed, I will do so, just as I would with any other agency 
or department within the Executive branch.
    Senator Hassan. The distinction, of course, being that 
other agencies have Inspectors General and the White House does 
not. Is that correct?
    Mr. Rounds. Well, there are other agencies which do not 
have Inspectors General either.
    Senator Hassan. Oh, OK.
    Mr. Rounds. Smaller agencies do not have Inspectors General 
either, but that said, OGE has, I think, over the past many 
months, shown that it is ready and willing to protect and 
preserve, as I say, the integrity of the employees and 
officials of the Executive Branch, and we will continue to do 
so, if I am confirmed as Director.
    Senator Hassan. Thank you for that.
    We talked in my office about the importance of top-down 
leadership and of creating a culture of ethics at each agency, 
and you have said that one of your priorities, should you be 
confirmed, is to meet with the heads of agencies in order to 
set this tone. But the fact of the matter is that this 
Administration has arguably seen some of its biggest ethics 
violations from these people at the top. How will you work to 
create a top-down ethical culture if the people at the top are 
part of the problem?
    Mr. Rounds. Well, that is, in fact, the challenge, yes, 
Senator, and I am going to do the best that I can, use whatever 
persuasive skills I might have, perhaps, to discuss with them, 
and to listen to them as well. Because if we have a 
communication, if we have a dialogue, perhaps there will be a 
fuller and better understanding of what the ethics laws and 
rules are and how they play an important role within an 
Executive Branch agency and department.
    Senator Hassan. Well, I would look forward to continuing 
that discussion because I think it is a real challenge that we 
have right now, and I think when the tone is not set correctly 
at the top it makes it very difficult for the public to have 
confidence, which I know is something you care a great deal 
about.
    I wanted to raise one additional issue. OGE recently 
released guidance on disclosures of donors to legal defense 
funds that former OGE Director Walter Shaub has called--and 
this is his quote--``the worst thing OGE has done in its 40 
years of existence.'' This guidance I am referring to applies 
to recipients of money to the Patriot Fund, the fund 
established to defray the legal costs of members of the 
President's team who are deposed in the Russia investigation.
    This new guidance would exclude recipients of money from 
this fund from having to name individual donors who give $200 
or more to the fund on their financial disclosures, leaving the 
development of these donor list to the fund's manager, who has 
discretion over how to dole out the money pooled in the fund. 
The fund manager cannot only dole out money as she sees fit, 
meaning the fund recipients could be rewarded monetarily for 
giving more favorable testimony in the investigation, but her 
management also gives the President's team plausible 
deniability if there are any illegal gifts to the fund.
    I find this very concerning, and I guess my first question 
is, have you read this guidance, and, if so, do you share these 
concerns?
    Mr. Rounds. Senator, I have read the guidance but I fully 
do not have all of the information, all of the facts, all of 
the considerations that were made before this was, in fact, 
promulgated as an opinion, a recommendation, if you will, of 
the Office of Government Ethnics.
    I should explain that I strongly respect the Senate's 
confirmation role in the appointment process, and because of 
that, and given my Navy background where there is only one 
skipper of any ship, and that current skipper is the Acting 
Director of the Office of Government Ethics, I have been very 
careful not to, in any way, impose myself on the agency in any 
other role than as an employee, and I have not insinuated 
myself in any OGE decisionmaking, and I have done that 
purposefully.
    So what I need to do, among many things, when I get there, 
is ask questions.
    Senator Hassan. Right. And I realize that I am over my 
time. What I would appreciate is a commitment from you to 
review the guidance, if you are confirmed, and to, I hope, make 
changes necessary so that that guidance complies with ethical 
standards.
    Mr. Rounds. I appreciate your concerns, Senator. I have a 
list of things, if I am confirmed, that I will be considering.
    Senator Hassan. OK. Thank you very much.
    Senator Lankford. Thank you. I am going to recognize 
Ranking Member Jones for this. We have just had votes called, 
and so we are going to see if we can wrap this up with his 
questions and with mine. And I know that would grieve you all 
tremendously if we were to wrap up in the next 10 or 12 
minutes, but we will see if we cannot wrap that up together. 
Senator Jones.
    Senator Jones. Thank you, Mr. Chairman, and let me say, 
real quickly, that this morning I had the opportunity to visit 
with the FBI to discuss your backgrounds and I will say, Mr. 
Chairman, that in my time in the Senate it was the shortest 
meeting I think I have ever had, which I think is a testament 
to all of our nominees here.
    So, Mr. Nutt, real quick, I am just going to ask a series 
of things. You have talked about becoming familiar with the 
President's management agenda. What specific challenges can you 
identify with the management agenda that the President has put 
out, and do you have any plans for developing and implementing 
that agenda?
    Mr. Nutt. There are approximately 14 cap goals in the 
President's management agenda, of which 4 or 5 are in the 
financial management area that we would be meeting with the 
appropriate folks at various agencies to get everybody aligned 
so that we are all working in the same general direction when 
it comes to the various different issues, whether it is 
improper payments, financial and other systems, grants, 
improved accountability for grants management, and so forth. So 
there are several different areas that we would be working in.
    Senator Jones. All right. Great. Ms. Higashi, I mentioned 
in my earlier statement that I have been both an Assistant U.S. 
Attorney and U.S. Attorney. What I did not also say is that in 
between both of those stints I was also a member of the Defense 
bar, both in a civil and criminal realm. So I understand 
sometimes it is difficult going from one hat to the next. But I 
know you understand the importance of an independent judiciary 
and a fair judiciary. Do you see any problem with you changing 
hats after a wonderful career as a prosecutor to make sure that 
all litigants that come before you have the same and equal 
opportunity?
    Ms. Higashi. Absolutely not, Senator. I do not see any 
difficulty. In fact, in my role as an Assistant U.S. Attorney, 
and especially during the years when I have been a supervisor, 
I have come to learn that one of the most important roles that 
we serve is not just as an advocate but as a minister of 
justice. So, as you know, as an Assistant U.S. Attorney, my 
client is not the victim of a case. My client is the United 
States. My client is the community. So I have a special duty to 
ensure that we only bring prosecutions, or we have reasonable 
likelihood of success. when we evaluate evidence for potential 
disclosure under Brady and Giglio, we are required to view the 
evidence from a defense perspective in deciding whether or not 
something would be not only material or favorable, but 
something that the defense should know.
    Senator Jones. All right. Thank you so much.
    Mr. Rounds, let me say, earlier in my statement I talked 
about the challenges, I think, that we are facing right now, 
both with partisanship around here as well as, I think, ethics 
has become a highlight over the last couple of years. I am not 
being critical of the Administration or anyone. I think what we 
have seen are some new opportunities where the President and 
others that are coming in are representing some new challenges 
that we have not seen as much before.
    With those challenges come opportunities to fine-tune the 
ethics and the role of the Office of Government Ethics. Is that 
what you plan to do, to try to look and review all of this in 
the light of what can be done to make it better in light of the 
new circumstances that we may see, and new opportunities?
    Mr. Rounds. Thank you, Senator, and I appreciate the 
interest, and I concur that this is something that, if I am 
confirmed as Director, I will certainly be doing. The nature of 
financial interests that we see on financial disclosure reports 
has changed and evolved since the Ethics in Government Act was 
first promulgated, and OGE has to evolve in many ways with 
those changes.
    OGE has, over its history, evolved, and has changed, and 
has come to grips with changes that need to be made as time 
passes. So, absolutely, this is one of the things that I will 
be doing, is studying, with my senior staff, if I am confirmed, 
what can we do to make this better?
    Senator Jones. All right. Thank you, sir. And let me just 
say that I share Senator Hassan's concern concerning the 
Patriot Fund, and I hope you will look at that. And I come at 
that from the standpoint of both a prosecutor and a defense 
lawyer. No one is suggesting that there is any manipulation 
going on, but when there is that possibility, it raises issues 
that I think need to be looked at, so I appreciate your 
willingness to at least take a look and see whether that 
guidance needs to be reviewed.
    So thank you and thank you all for being here, and 
congratulations.
    Thank you, Mr. Chairman.
    Senator Lankford. Thank you. Mr. Rounds, let me ask you a 
question on reauthorization. Senator Jones just, earlier, 
mentioned about how OGE has not been reauthorized now. Mr. 
Shaub, the previous Director, did a proposal for a 7-year 
reauthorization but with no changes in it. After he left as 
Director, he recommended 13 different policy changes to the 
Office of Government Ethics. It has been an interesting 
challenge for us all along that people that are sitting in the 
chair say everything is fine and when they leave they say, ``By 
the way, there are major changes I would recommend'' but would 
not say it while they were in the chair.
    I am not asking you to make the recommendations. You are 
not even in the chair at this point yet.
    Mr. Rounds. Yes, sir.
    Senator Lankford. But we need engagement from this 
Committee so that when you are in the seat, we can have ongoing 
dialogue rather than hearing, ``It is fine,'' and then you 
leave and go, ``Yes, there are real problems.'' Can we have a 
commitment from you that we can have some honest dialogue, that 
if you are placed in this position and confirmed, if there are 
recommendations that you would make, we could have that 
dialogue either in a public or private setting, so we can make 
the changes needed?
    Mr. Rounds. Yes, sir.
    Senator Lankford. We would appreciate that very much, just 
to be able to have that open once you get to know us, we are 
not that difficult. So we will get a chance to be able to work 
this out.
    The previous Director also did some tweets at different 
points. No one really understood was that the official position 
from the Office of Government Ethics or was this a personal 
opinion on that. How will you handle social media, and as far 
as official policy positions or statements from OGE?
    Mr. Rounds. If I am confirmed as Director, it will be 
crystal clear when there are official statements made by the 
Office of Government Ethics, and I do not intend, as Director, 
to make any unofficial statements or declarations as Director.
    Senator Lankford. Terrific. That helps make it 
exceptionally clear.
    Ms. Higashi, I have one simple question for everyone on the 
bench, and it is, do you pledge that the facts of the law will 
drive your decisions when you are on the bench?
    Ms. Higashi. Absolutely.
    Senator Lankford. I did not doubt your answer on that, but 
I ask everybody, because that is the primary question. There 
are a lot of other issues that we could talk about, but the law 
being the primary feature obviously is the key issue as you 
walk through the process, and what people would anticipate when 
they come to your bench.
    Let me ask you a second follow-up question. In your 
experience that you have had, which has been pretty varied, 
what do you think prepares you uniquely for this spot on the 
bench, based on your experience, and where are you weakest to 
think I am going to have to develop that because I do not have 
a strong experience in that area?
    Ms. Higashi. Well, while my 23 years of experience 
prosecuting cases in the Superior Court and the U.S. District 
Court has been within the area of criminal law, I believe that, 
at a base level, every litigated matter, whether it is within 
the criminal law, the civil law, family law, has two basic 
aspects--a fair finding of the truth in the facts, and 
identifying of the governing relevant law, and applying that 
law to the facts. And I have significant experience in 
investigating and prosecuting cases, and have developed, 
through that, a skill at honing in on the relevant facts of a 
case. And I have also gained experience in being very 
resourceful in finding the governing relevant law and analyzing 
it and applying it to the facts.
    Absolutely, and when I am assigned to a docket in the civil 
division, or the family division, or the tax and probate 
division, I will absolutely have to be very diligent and study 
and learn new rules of procedure and become familiar with new 
areas of law that I am not as familiar with. But I believe 
given the experience that I have, I am confident that I can do 
that.
    Senator Lankford. OK. Thank you.
    Mr. Nutt, Senator McCaskill and I have a bill that we are 
working through the process called the Taxpayer's Right to 
Know. It has passed unanimously through the House. It is now in 
the Senate. It might surprise you that it slowed down some in 
the Senate, even though it was unanimous in the House. That 
bill does a simple request of every agency to do a list of all 
the programs that they do, as an agency, how much they spend on 
those programs, how many staff they assign to those programs, 
the people that they serve for those programs, and if the 
program is evaluated, how it is evaluated. It is fairly 
straightforward. It is not a complicated piece.
    And, by the way, the GAO has said this was the top issue 
for them, and saying it is a tool that they need to be able to 
do oversight from the GAO level as well--that would fall to 
you, to be able to help work with agencies. When this passes, 
and we believe that it will, and we are going to keep working 
until it does, how will you implement that? Have you had the 
opportunity to be able to look at that particular bill?
    Mr. Nutt. I am familiar with the issue only a certain 
level. I, first off, would say that I am wholeheartedly in 
support of improving transparency and accountability to the 
U.S. taxpayer. My understanding of the data from agency to 
agency across the government is such that it is not easily 
comparable, and so that is one of the difficult areas, and it 
is an area that I think we are already working on. But it is an 
area that will continue to need to be addressed over the years, 
to bring the data in line so that the comparisons, the 
reporting, the transparency can be realized.
    Senator Lankford. OK. We will look forward to working with 
you on that. Senator McCaskill and we do not like to lose, and 
so I can assure you we will keep pressing until we get this 
done, because we feel it is exceptionally important to be able 
to have that type of inventory, not only for the American 
people and the taxpayer but from agencies. What we hear from 
other agencies, they do not know what other agencies are doing 
and how to compare themselves and how to be able to work 
through the process. So it would be helpful within the 
government, and certainly outside of the government as well.
    Let me recognize Senator Heitkamp for any questions that 
she may have, as we are wrapping up and preparing for votes 
that have already been called, by the way, about 13 minutes 
ago.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you all for your willingness to 
serve, and I wish you well. We will be submitting some 
questions for the record. [Laughter].
    Senator Lankford. That could not have been any easier for 
you.
    Senator Jones. That is a first.
    Senator Heitkamp. I can read his mind.
    Senator Lankford. Any other final statements that you all 
would have, as well?
    Mr. Rounds. Just thank you, sir.
    Senator Lankford. Thank you.
    Ms. Higashi. No, sir.
    Mr. Nutt. Thank you. No more at this time. Thank you.
    Senator Lankford. The nominees have made financial 
disclosures and provided responses to biographical and pre-
hearing questions submitted by the Committee.\1\ Without 
objection, this information will be made a part of the hearing 
record,\2\ with the exception of the financial data, which will 
be on file and available for public inspection in the Committee 
offices.\3\
---------------------------------------------------------------------------
    \1\ The information submitted by Mr. Rounds appears in the Appendix 
on page 29.
    \2\ The information submitted by Ms. Higashi appears in the 
Appendix on page 94.
    \3\ The information submitted by Mr. Nutt appears in the Appendix 
on page 119.
---------------------------------------------------------------------------
    The hearing record will remain open until 5 p.m. tomorrow, 
May 24th, for submission of statements and questions for the 
record that we understand are coming, and we will follow up 
with you on any of those questions we have, we will get to you.
    For all three of you and your families, thank you. This is 
a tremendous sacrifice to be able to do public service. We 
understand that. You understand that all very well. Also, for 
the public service that you have already given, we appreciate 
you stepping up to continue to be able to serve the public.
    With that, this hearing is adjourned.
    [Whereupon, at 3:30 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
